       Audit of USAID/Bosnia-Herzegovina’s
          Business Development Program
for the Period April 1, 1999 through March 31, 2000



         Audit Report No. B-168-01-001-P
                December 21, 2000




                  Budapest, Hungary
               U.S. AGENCY FOR
                INTERNATIONAL
                 DEVELOPMENT

               RIG/Budapest


               December 21, 2000


               MEMORANDUM

               FOR:              USAID/Bosnia-Herzegovina, Edward L. Kadunc, Jr.

               FROM:             Director of Audit Operations, Budapest - Nathan S. Lokos

               SUBJECT:          Audit   of     USAID/Bosnia-Herzegovina’s       Business
                                 Development Program for the Period April 1, 1999 through
                                 March 31, 2000


               This is our final report on the subject audit. In finalizing the report, we
               considered your comments on the draft report and included them in
               Appendix II.

               Based on the results of the audit, we found that the loan volume during
               this one-year period—$5.4 million in loans recommended—represented
               only about 5 percent of the targeted amount of $120 million. We noted
               that there were various reasons why loan activity did not meet the targeted
               amount during this period, including an increasing emphasis on loan
               quality and monitoring, shifting of resources to pursue delinquent
               borrowers and fraudulent banking activities, the weakening economy, the
               Kosovo war in the Balkans, and growing competition from other lenders.

               This report makes no new recommendations; therefore, no action on the
               report is required by USAID/Bosnia-Herzegovina.

               We appreciate the cooperation and assistance provided to the auditors on
               this assignment.




Page 1 of 12                                                   Audit Report No. B-168-01-001-P
     Background
                  Bosnia-Herzegovina declared its independence from the former Socialist
                  Republic of Yugoslavia in March 1992, following the lead of Slovenia and
                  Croatia which declared their independence in 1991. The move to
                  independence precipitated a war in Bosnia-Herzegovina that lasted from
                  1992 until the signing of the Dayton cease-fire agreement on October 10,
                  1995. Following the cease-fire, Bosnia-Herzegovina was faced with
                  keeping the peace and restructuring its war-torn economy. The Dayton
                  Agreement viewed economic rehabilitation and reconstruction as an
                  essential element in achieving peace. The Agreement negotiators believed
                  that the people must have an economic stake in the process; therefore,
                  economic reconstruction, economic institution building, and promoting a
                  market economy were deemed to be major factors in ensuring lasting
                  peace.

                  In 1996, there were signs of economic recovery such as repairs to basic
                  infrastructure. However, many key economic institutions and businesses
                  were not fully functioning. The country’s banking system was technically
                  insolvent and burdened with non-performing loans. On March 29, 1996,
                  the House Joint Resolution 170 (Public Law 104-122) appropriated $198
                  million for assistance to Bosnia-Herzegovina to address some of these
                  concerns regarding the physical and economic infrastructure. These funds
                  were to be used for economic revitalization ($145 million); police training
                  and monitors ($45 million); demining ($5 million); and operating
                  expenses ($3 million).

                  USAID became involved in May 1996 when the Assistant Administrator
                  for the Bureau for Europe and the New Independent States (now called the
                  Bureau for Europe and Eurasia) authorized the five-year $278 million
                  Bosnian Reconstruction Finance Facility program that is now known as
                  the Bosnia Development Program (BDP). These funds were to be used for
                  financial support of post war reconstruction and economic revitalization,
                  as well as for increasing employment of the general population, refugees,
                  and demobilized soldiers. On May 7, 1996, a grant agreement was signed
                  between the United States and Bosnia-Herzegovina to obligate the
                  program’s initial $27.5 million. This amount was transferred by USAID to
                  Bosnia-Herzegovina in July 1996. As shown in the following table,
                  USAID has not transferred any funds in this reporting period, but has
                  transferred a total of $232.9 million to Bosnia-Herzegovina since the
                  inception of the program.




Page 2 of 12                                                    Audit Report No. B-168-01-001-P
                       SUMMARY OF OBLIGATIONS AND FUNDS TRANSFERS
                                   AS OF MARCH 31, 2000

               OBLIGATING                             AMOUNT                   DATE OF
               DOCUMENT                               (millions)            FUNDS TRANSFER
               Grant Agreement                                 $27.5               July 1996

               Amendment #1                                     12.5            November 1996

               Amendment #2                                     19.5               May 1997

               Amendment #3                                     40.0           September 1997

               Amendment #4                                     30.0               April 1998

               Amendment #5                                     65.4           September 1998

               Amendment #6                                     38.0            February 1999

                Total Obligated and Transferred              $232.9




   Audit Objectives

                                 The objective of this concurrent audit was to determine whether
                                 USAID/Bosnia-Herzegovina and the implementing contractors used
                                 economic revitalization assistance funds designated for the Business
                                 Development Program for the purposes authorized under the Grant
                                 Agreement and Public Law 104-122.

                                 The Office of Inspector General has issued periodic reports on the
                                 Business Development Program. This report is the ninth such report on
                                 the program.1 Appendix I contains a discussion of the scope and
                                 methodology for the audit.


        1
           See Audit Report Nos.: B-168-97-002-P, dated March 26, 1997; B-168-97-006-P, dated June 27, 1997; B-168-98-
001-P, dated October 10, 1997; B-168-98-004-P, dated March 26, 1998; B-168-99-001-P, dated October 30, 1998; B-168-99-
004-P, dated August 18, 1999; and B-168-00-004-P, dated February 25, 2000. Also, see Memorandum Report No. B-168-
98-003-S, dated July 21, 1998.



Page 3 of 12                                                                         Audit Report No. B-168-01-001-P
     Audit Findings

                      Did USAID/Bosnia-Herzegovina and the Implementing
                      Contractors Use Economic Revitalization Assistance Funds
                      Designated for the Business Development Program for the
                      Purposes Authorized Under the Grant Agreement and
                      Public Law 104-122?
                      USAID/Bosnia-Herzegovina and the implementing contractors generally
                      were using the economic revitalization assistance funds designated for the
                      Business Development Program (BDP) for the purposes authorized under
                      the grant agreement and Public Law 104-122. However, of four
                      borrowers visited this period, one did not use loan funds for agreed-upon
                      purposes and the other three had used loan funds to make final payments
                      for goods and/or services that had only been partially delivered.
                      Moreover, civil and criminal cases are being pursued against four agent
                      banks that did not fulfill their responsibilities under bank agency
                      agreements.

                      The BDP has experienced similar problems with some borrowers and
                      banks in the past. In such cases, USAID/Bosnia-Herzegovina has taken
                      corrective action against those borrowers and banks that include civil and
                      criminal remedies.


                      BDP—What can funds be used for?

                      Bosnia-Herzegovina’s physical infrastructure sustained extensive damage
                      during the war. Reconstruction requires financial resources and long-term
                      credit for the rehabilitation and revitalization of Bosnian businesses, which
                      could then offer sustainable employment opportunities for the general
                      population, especially demobilized soldiers and refugees. In response to
                      this requirement, USAID designed the BDP, a $278 million balance-of-
                      payments initiative intended to “jump-start economic growth and generate
                      employment opportunities for the general population.” The program was
                      officially initiated with the signing of the grant agreement on May 7, 1996.
                      Of the planned $278 million available for the BDP, $256 million was
                      allocated for the loan program and $22 million for technical assistance,
                      training, and support costs.




Page 4 of 12                                                         Audit Report No. B-168-01-001-P
               Loan Program To implement the BDP, USAID signed a task order with
               Development Alternatives, Inc., (hereafter referred to as Development
               Alternatives) on May 16, 1996, to establish and operate Business Finance.

               As the primary implementor of the BDP loan program, Business Finance,
               with offices in Sarajevo, Tuzla, Banja Luka, and Brcko, recommends
               loans to USAID/Bosnia-Herzegovina for approval. The task order set
               targets of $45 million in loan recommendations which were expected to
               create 6,750 jobs through December 31, 1996. After that time,
               USAID/Bosnia-Herzegovina expected Business Finance to recommend
               $10 million in loans per month, which would generate 1,500 jobs per
               month. USAID/Bosnia-Herzegovina formalized these targets with
               Development Alternatives in a task order modification that became
               effective on May 1, 1997, and continued the targets in a subsequent
               contract with Development Alternatives that expired on September 30,
               1998.

               USAID set similar expectations for The Barents Group, the new contractor
               who assumed responsibility for Business Finance on October 1, 1998.
               According to the terms of Barents’ contract, a volume of $10 million
               worth of recommendations on the average, with an associated employment
               impact of 1,500 jobs was expected each month during the contract period.
               Applying the contract terms to the one-year period ending March 31,
               2000, Business Finance was expected to increase loan recommendations
               by $120 million and to create 18,000 new jobs.

               The total authorized on-lending program amount is $256 million.
               However, USAID has obligated and transferred funds totaling $232.9
               million and believes that it will not need to obligate and transfer the
               remaining $23.1 million balance of authorized funds.

               Technical Assistance The Barents Group’s contract also provides for
               training to (1) enable Bosnian bankers to offer a range of financial services
               to private sector companies and undertake responsibility for a portion of
               the lending activity and (2) prepare Bosnian counterparts to eventually
               assume responsibility for the management of the program.

               In addition to creating Business Finance, USAID also signed a task order
               on June 28, 1996, with The Recovery Group to provide assistance to
               businesses seeking loans from the BDP and World Bank credit programs
               and to assist enterprises in achieving long-term viability. To meet its
               objectives, The Recovery Group established Business Consulting which
               now has offices in Sarajevo, Tuzla, and Banja Luka. On November 1,
               1999, Deloitte & Touche, selected through a competitive procurement,
               replaced The Recovery Group as the program’s Business Consulting
               contractor.



Page 5 of 12                                                  Audit Report No. B-168-01-001-P
               USAID set work objectives for Deloitte & Touche to facilitate the
               turnaround of struggling borrowers, provide essential consulting services
               to all other borrowers, and assist selected firms to prepare for
               privatization.


               BDP Status—What were funds used for?

               Loan Program Generally, borrowers were using the BDP loan proceeds
               to finance building reconstruction, equipment purchases, raw material
               acquisitions, and some operational expenses. Since the program’s
               inception through March 31, 2000, the $135.7 million in loans
               recommended by Business Finance fell short of the $256 million target by
               $120.3 million. Furthermore, the Mission had obligated and disbursed
               $232.9 million to the Government of Bosnia-Herzegovina to assist with
               their balance of payment needs by financing the approved loans while the
               Government of Bosnia-Herzegovina had disbursed $125.4 million for the
               loans.      (See Appendix IV for details on budgeted, obligated and
               disbursed amounts.)

               As of March 31, 2000, the program bank accounts consisted of $176
               million representing undisbursed funds, loan principal and interest
               payments, and interest earned on the accounts which is to be used for
               program needs. USAID is working on various strategies to use these
               funds for future program goals such as: creating a deposit insurance entity,
               expanding the program into additional areas in Bosnia, and mortgage
               lending.

               In previous reporting periods, shortfalls were attributed to systems and
               personnel restructuring intended to streamline loan production, a shortage
               of lending officers available to analyze and process applications and a
               change in contractors. During this reporting period, loan volume
               decreased from the prior one-year period—from about $46.3 million to
               $5.4 million. According to program personnel, this shortfall was the result
               of factors such as the:

               •      Increasing emphasis on loan quality and loan monitoring

               •      Shifting of resources to pursue delinquent borrowers and
                      fraudulent banking activities

               •      Weakening economy and Kosovo war in the Balkans

               •      Growing competition from other lenders.


Page 6 of 12                                                 Audit Report No. B-168-01-001-P
               Technical Assistance        Business Finance conducted seminars and
               workshops for bankers, prospective borrowers, and Business Finance staff
               during this one-year reporting period. The seminars covered topics such as
               bank strengthening, the loan application process, and problem loan
               management. The internal audit group, and other members of Business
               Finance, provided training in disbursement procedures for agent bank
               personnel, and field and lending associates.

               To further strengthen the banking community, USAID has created another
               program called the Bank Development and Training Program. This
               program began operations in late February 2000 and will provide in-bank
               advisory services and formal classroom training. A team of five resident
               advisors will transfer banking skills in strategic planning, internal audit
               and controls, accounting, liquidity management and other treasury
               functions, bank operations management, and information technology.

               Business Consulting has been working with USAID and other parties in
               developing a program on privatization preparation assistance. It has also
               coordinated efforts with Business Finance and taken a proactive approach
               by focusing on companies that could become future delinquents if
               corrective actions are not taken. New training programs, such as internet
               marketing and market intelligence surveys, are also being developed.

               (See Appendix III for detailed information on the status of the BDP.)


               Results of Audit Tests

               Our audit this reporting period focused on the status of loan activities and
               the adequacy of agent bank and loan monitoring efforts. In carrying out
               our audit work, we determined whether we could rely on the work of the
               Business Finance Internal Audit Unit which conducts ongoing audits of
               Business Finance activities. As in previous reporting periods, we
               reviewed their qualifications and independence and tested the results of
               their work. Based on our reviews and tests, we concluded that we could
               rely on the auditors’ work. (Appendix I contains a more detailed
               description of our audit scope and methodology.)

               The audit unit, consisting of a Bosnian audit manager and two Bosnian
               auditors, performs site visits to agent banks and borrowers, and reviews
               operations within the Business Finance organization. Business Finance
               appointed the Bosnian audit manager towards the end of the reporting
               period fulfilling its mandate to move Bosnians into positions of more
               responsibility in the organization. As previously reported, we believe that
               this unit plays an important role in ensuring accountability for this
               USAID-funded program.



Page 7 of 12                                                 Audit Report No. B-168-01-001-P
               Borrowers

               Since the program began, RIG/Budapest and Business Finance auditors
               have performed tests of both borrowers and agent banks. Borrower visits
               focused on borrowers suspected of possible irregularities in their use of
               loan funds. During this reporting period, one borrower appeared to have
               misused about $175,000 of the loan due to lack of proper documentation.
               Three other borrowers are being watched closely as the disbursement
               transactions had not yet been completed. One borrower paid a supplier
               over $237,000 based on a preliminary invoice instead of a final invoice.
               In another case, a borrower paid a supplier $103,000 for sewing machines,
               most of which have not yet been delivered, while yet another borrower
               paid $47,000 based on an invoice for the construction and installation of a
               kiln which has not yet been completed.

               Business Finance is pursuing claims against borrowers who have not
               repaid their loans and have not used loan funds for agreed-upon purposes.
               As of March 31, 2000, Business Finance was actively pursuing 75 court
               cases involving foreclosure, litigation, and criminal actions that had a total
               claim value of over $28 million.

               In response to our prior audit recommendation addressing inadequacies in
               monitoring, Business Finance initiated a monthly borrower contact
               monitoring program which tracks and reports on site visits and other forms
               of borrower contacts. Visits by program personnel are currently averaging
               over 400 each month. This increased monitoring effort has played a role
               in reducing total delinquencies as of March 2000 to their lowest level
               since December 1998.

               USAID initially loaned funds to state-owned enterprises in order to jump-
               start the Bosnian economy. However, to support the private sector,
               USAID ended this practice and shifted its lending exclusively to private
               enterprises. According to program personnel and relevant documents,
               loan collection from state-owned enterprises has proven especially
               difficult as local politicians exert excessive control over company
               operations. It appears that millions of dollars are being siphoned off in
               anticipation of future privatization deals. As a consequence, USAID loans
               and other expenses, such as salaries and utility bills, are not being paid.
               USAID Business Finance is vigorously pursuing collection of these loans
               and working with local and international authorities to investigate
               irregularities. As noted by program personnel and relevant documents,
               several examples are shown below to illustrate the extent of these
               problems. Additional examples are shown in Appendix V.

               Company 1:




Page 8 of 12                                                   Audit Report No. B-168-01-001-P
               Although Bosnian officials admit that the timber and sawmill divisions
               have a large volume of sales (e.g. logs valued over $1 million), they
               cannot explain where the revenue is going. The Business Finance loan as
               well as salaries, taxes, electric bills, gas bills, and other expenses have not
               been paid.

               Company 2:

               Bosnian officials admit embezzlement of $700,000 by a director.
               However, no charges have been filed against this “politically connected”
               individual. The acting director admitted that monthly sales of up to
               $260,000 could easily pay monthly obligations and expenses.
               Unfortunately, "secret phone calls and threats from powerful people" force
               him to release finished products for which the company does not get paid.
               As a result, the Business Finance loan, salaries, and other expenses remain
               unpaid.

               Company 3:

               The valuable quarry operation has been split off from the ailing soda
               factory in a questionable pre-privatization play. Up to 100 private trucks a
               day leave the quarry loaded with gravel but the director cannot describe
               where the revenue from those trucks goes as he "could be replaced for
               divulging that information."         Monthly income probably exceeds
               $350,000, but the Business Finance loan and other expenses such as
               salaries remain unpaid. Any worker who protests or does not show up for
               work is fired.


               Agent Banks

               Although the bank visits identified several problem areas, improvements
               were noted from prior periods. For example, improvements in the
               monitoring of loans and the disbursement verification process were noted
               after Business Finance instituted new disbursement procedures. However,
               the banks should continue to work on these areas. Of the 19 visits made to
               17 agent banks, Business Finance has classified the banks in one of five
               categories ranging from superior to unacceptable. However, no banks
               were rated superior. Two banks were rated as satisfactory, five as
               acceptable but in need of improvement, four banks as marginally
               acceptable but in need of improvement and four as below acceptable and
               in need of significant improvement. These four banks were downgraded
               by Business Finance; two became service banks (i.e. can not generate new
               loans but can only service existing loans) and two had their agreements
               cancelled. Two banks were not rated at the time of our audit.




Page 9 of 12                                                   Audit Report No. B-168-01-001-P
                Currently, Business Finance and local authorities are pursuing two civil
                (claims totaling $1,330,000) and two criminal cases against four agent
                banks visited in prior reporting periods. We had recommended that these
                banks be removed from the program due to violations of their agent bank
                agreements. Updated details of the cases against these banks are noted
                below.

                Bank 1:

                This is the first bankruptcy case in the country and has been assigned to
                the Federation Ministry of Finance.          USAID, on behalf of the
                Government of Bosnia-Herzegovina, has an outstanding claim for an
                undisbursed amount of $730,000 which remains at risk in the bank. As
                this bank is in liquidation, Business Finance has been working with a
                receiver. An acting receiver has been appointed as the original receiver
                was attacked and beaten up outside his home.

                The criminal court issued a 54 page verdict which convicted numerous
                bank officials of fraudulent activities. Three bank officials and two
                cashiers received jail sentences ranging from six months to four years and
                three months. Two other employees received probation which could result
                in jail terms of three to six months if they violate the terms of their
                probation. The director, who received the sentence of four years and three
                months, served about 13 months in detention in Zenica prison while the
                case was in deliberations. It’s unclear if he served any other jail time after
                the verdict as Business Finance is no longer tracking the criminal case and
                there may have been appeals to overturn or reduce the jail sentences.

                Bank 2:

                A civil case resulted in a settlement in June 1999 ordering this bank to pay
                USAID, on behalf of the Government of Bosnia-Herzegovina, a sum
                totaling $600,000 as of December 1999. As no judgement has been paid,
                penalty interest at the rate of 18% a year will continue to accrue. There
                were also liabilities to other donors (e.g. Swiss Embassy, American
                Embassy and World Vision). However, a full balance sheet has never
                been presented to creditors so the real accountability of the bank is not
                known. The Swiss Embassy is sponsoring a detailed review of the bank
                by a major accounting firm, and USAID anticipates criminal charges.
                Business Finance has been working with the same acting receiver as the
                previous bank case.

                The bank is owned by a well-known family in Bosnia with alleged
                criminal connections. In August 2000, one of the bank's owners was
                arrested at night by local police with a U.N. policeman and a local reporter
                in attendance.



Page 10 of 12                                                   Audit Report No. B-168-01-001-P
                Bank 3:

                Business Finance is pursuing foreclosure actions against individual
                borrowers involved in fraudulent activities.        Business Finance is
                negotiating with the bank to cover any losses on these loans if the
                borrowers do not pay the outstanding loan balances. If the borrowers do
                not pay and the bank accepts responsibility, the bank’s potential exposure
                could be as high as $1.4 million.

                As of August 2000, the bank had collapsed, and a criminal trial was
                scheduled to start in September 2000.

                Bank 4:

                Business Finance is negotiating with this bank to cover the possible losses
                arising from a potential foreclosure action against a borrower. Business
                Finance believes that the bank was negligent in not filing a mortgage for
                this borrower on a timely basis, thus placing it in a subordinate position.
                If the borrower does not pay and the bank accepts responsibility, the
                bank’s potential exposure could be as high as $440,000. Business Finance
                intends to collect the loan from one or both parties.

                Business Finance has also made a claim against three bank officials
                involving fraudulent activities with another borrower. There is an open
                investigation regarding a criminal case. Various delays have been
                encountered in the court system.


                Conclusion

                On behalf of the Government of Bosnia-Herzegovina, USAID and its
                contractors are pursuing all possible means to collect the loans and to
                recover funds. Their efforts have been hampered by an environment that
                is fraught with pervasive fraud and corruption. During this reporting
                period, USAID and the RIG/Budapest office collaborated with the United
                States General Accounting Office in their efforts to address this problem.
                In July, 2000, the United States General Accounting Office issued a report
                entitled “Bosnia Peace Operation: Crime and Corruption Threaten
                Successful Implementation of the Dayton Peace Agreement”. The report
                concluded that:

                “Endemic crime and corruption is impeding the successful implementation
                of the economic, political, and judicial reform goals of the Dayton Peace
                Agreement. According to senior U.S. and international officials and
                numerous studies, corruption is impeding progress towards implementing the
                Dayton Agreement, and conditions for the complete withdrawal of NATO-



Page 11 of 12                                                 Audit Report No. B-168-01-001-P
                      led forces will not be met unless Bosnian officials make concerted efforts to
                      address this problem. This, however, has not happened: crime and
                      corruption continue to pervade Bosnia’s political, judicial, and economic
                      systems.”

                      Furthermore, the report recommended that:

                      “…the Secretary of State take the lead in conducting a reassessment of the
                      U.S. strategy for assisting Bosnia to achieve the objective of establishing a
                      democratic government and a market economy.”

                      The report’s primary recommendation was that:

                      “…the Department of State evaluate unilateral and multilateral options for
                      modifying the type and amount of assistance provided (including a review of
                      the appropriateness of providing general budget support), place strict
                      conditions on future assistance, and possibly suspend assistance until
                      Bosnian political leaders independently demonstrate their determination to
                      fight organized crime and corruption.”

                      We believe that the problem is of such magnitude that it can only be
                      addressed through a massive and coordinated response on the part of the
                      international community. Although some progress has been made, efforts
                      to date have been inadequate in bringing about substantive change. We are
                      not making a recommendation at this time as the General Accounting
                      Office’s recommendation covers all assistance to Bosnia.




     Management
     Comments and
     Our Evaluation

                      USAID/Bosnia-Herzegovina officials agreed with the content of our report
                      and their comments are included as Appendix II to this report.




Page 12 of 12                                                        Audit Report No. B-168-01-001-P
                                                                      Appendix I


 Scope and     Scope
 Methodology
               The Office of the Regional Inspector General/Budapest
               (RIG/Budapest) is conducting a concurrent audit of USAID’s
               Business Development Program (BDP) activities in Bosnia-
               Herzegovina in accordance with generally accepted government
               auditing standards. From July 1996 through March 2000,
               USAID/Bosnia-Herzegovina obligated and disbursed $232.9
               million through BDP to the Government of Bosnia-Herzegovina to
               assist with their balance of payment needs. Of the $232.9 million
               transferred to the Government of Bosnia-Herzegovina, $125.4
               million has been disbursed as loans. From April 1999 through
               March 2000, the reporting period of this audit, USAID/Bosnia-
               Herzegovina disbursed $10.2 million.

               In conducting our audit, we substantially utilized the work of the
               Business Finance Internal Audit Unit. In order to rely on their
               work, we reviewed the generally accepted government auditing
               standards pertaining to an auditor’s reliance on the work of other
               auditors. In accordance with those standards, we were satisfied as
               to the auditors’ competence and objectivity. We also evaluated
               and tested their work through inquiries and reviews of internal
               audit reports, working papers and audit methodologies. We
               conducted the audit from April 2 through July 1, 2000, at the
               USAID, Business Finance and Business Consulting offices in
               Sarajevo.

               We did not audit the three BDP bank accounts maintained by the
               Central Bank of Bosnia-Herzegovina (formerly the National Bank)
               during this reporting period, but we examined controls over those
               accounts. We also did not audit the Fund Accountability
               Statement shown in Appendix IV. We performed limited work on
               the Business Consulting activities.


               Methodology

               Audit methodology included file reviews, interviews and data
               analysis. We reviewed amendments to the Grant Agreement
               between Bosnia-Herzegovina and the United States of America for
               Reconstruction Finance Facility, program documents, and
               contracts to determine BDP objectives and restrictions.

Page 1 of 3                                        Audit report No. B-168-01-001-P
                                                                       Appendix I

              We reviewed accounting records and tested compliance with the
              loan procedures and the agent bank agreements to assess whether
              internal control procedures were adequate and being followed. We
              interviewed various officials (e.g. USAID, contractor, Bosnian,
              and others) about problems in the program, and the adequacy of
              actions taken to address these problems.

              Since the inception of the program, RIG/Budapest and Business
              Finance auditors have visited 119 of the 402 borrowers who have
              received loan disbursements. In addition, 27 repeat visits have
              been made to some of the borrowers by both Business Finance and
              RIG/Budapest. (See table below.) The Business Finance Internal
              Audit Unit has conducted 70 visits while RIG/Budapest has made
              49 visits. The visits were conducted to verify the existence of the
              borrowers’ businesses and their use of the loan proceeds.
              Equipment and raw material purchases and reconstruction efforts
              that were funded by the loan proceeds were observed during these
              visits.


              BORROWER VISITS

                                  Current Period           Cumulative
               First Visits       4                        119
               Repeat Visits      0                         27
               Total              4                        146



              RIG/Budapest and Business Finance auditors have also conducted 70
              visits, 44 of which were repeat visits, to agent banks responsible for
              servicing most of the loans in the program. (See table below.) The
              Business Finance Internal Audit Unit has made 39 visits while
              RIG/Budapest auditors have conducted 31 visits. When appropriate,
              documentation was reviewed to determine how the banks were
              monitoring the use of the loan proceeds, as well as the agent banks’
              internal records of receipt and disbursement of loan funds. There
              was also a selective review of invoices submitted by the borrowers
              for purchases made using loan proceeds.




Page 2 of 3                                         Audit report No. B-168-01-001-P
                                                                Appendix I


                              AGENT BANK VISITS

                                 Current Period           Cumulative
              First Visits             5                     26
              Repeat Visits           14                     44
              Total                   19                     70




Page 3 of 3                                  Audit report No. B-168-01-001-P
                                                                                      Appendix II


              United States Agency for International Development
                           Sarajevo, Bosnia and Herzegovina


                                                                               November 27, 2000


MEMORANDUM

TO:             Nathan S. Lokos, RIG/Budapest

FROM:           Robert P. Jacobs, Acting Mission Director /s/

SUBJECT:        Audit of USAID/Bosnia-Herzegovina's Business Development Program for the
                Period April 1, 1999 through March 3 1, 2000

Thank you for your memorandum dated October 26, 2000, and the attached draft report on the
subject audit. We continue to be grateful for the rigorous review by your office of this complex
program since its inception in 1996. 1 note that your report makes no new recommendations and
am pleased that it highlights several areas in which we have tightened up the program in
response to problems our respective offices have identified in the past, often together.

It is encouraging that our increased monitoring efforts, in response to a prior audit
recommendation, led to the lowest level of delinquencies since December 1998. Your separate
conclusion that you can rely on the Bosnian-staffed audit unit of the Business Finance contractor
is also most encouraging as we continue to endeavor to develop local internal capabilities for the
implementation and monitoring of this program.

Nonetheless, 1 can assure you that we have no sense of complacency going forward with the
final stages of this lending program as Bosnia continues to face the challenges of making its
transition to a democratic society with a market-oriented economy under the rule of law. We will
continue to aggressively follow through in the court system each of the loans we referred for
foreclosure after exhausting all constructive alternatives. Although this involves a lot of patient
effort, we are encouraged by the periodic recoveries that our legal efforts have won thereby
restoring loaned grant funds owned by the State of Bosnia and Hercegovina and managed by this
program.




Page 1 of 1                                                         Audit report No. B-168-01-001-P
                                                                                  Appendix III



                                     Audited Status of the
                                Business Development Program
                                     As of March 31, 2000


The Business Development Program (BDP), a five-year, $278 million balance-of-payments
initiative, approved by the Assistant Administrator for the Bureau of Europe and the New
Independent States (now called the Bureau for Europe and Eurasia), on May 3, 1996, is intended
to “jump-start economic growth and generate employment opportunities for the general
population, including refugees and demobilized soldiers.” The BDP grant agreement, signed on
May 7, 1996, provides balance-of-payments assistance to Bosnia-Herzegovina to aid postwar
reconstruction, provide credit to the industrial and commercial sectors, and generate
employment.

On May 16, 1996, USAID signed a task order with Development Alternatives to establish and
operate Business Finance and provide intensive, in-country commercial banker training.
Development Alternatives’ team arrived in Sarajevo on June 13, 1996, to begin implementing
the program. Their final contract expired September 30, 1998. The new contractor, The Barents
Group, assumed responsibility for Business Finance on October 1, 1998.

Business Finance, composed of a team of experienced U.S. bankers, accountants, and Bosnian
staff has its headquarters at the Central Bank of Bosnia-Herzegovina, and is the primary
administrator of the BDP. Some of Business Finance’s responsibilities include reviewing and
recommending loan applications for approval; managing BDP’s lending operations; and
monitoring and managing the flow of funds between the BDP, the borrowing enterprises and the
agent Bosnian commercial banks, which are licensed by the Central Bank. Agreements between
the commercial banks and Business Finance allow the banks to function as agents for Business
Finance and to submit client loan applications. Business Finance also works with the Bosnian
commercial banks to help educate them in market-oriented lending policies and credit evaluation
techniques in an effort to assist the banks to develop a capable financial sector.

In addition to creating Business Finance, USAID signed a task order on June 28, 1996, with The
Recovery Group to help Bosnian businesses prepare and present proposals to Business Finance
and to assist enterprises in restarting and strengthening their operations. To implement its
objectives, The Recovery Group established Business Consulting with headquarters in Sarajevo.
On November 1, 1999, Deloitte & Touche, selected through a competitive procurement, replaced
The Recovery Group as the program’s Business Consulting contractor.




Page 1 of 5                                                      Audit Report No. B-168-01-001-P
                                                                                  Appendix III


BDP Plan

Although the BDP is a five-year program, its planned $278 million budget covers only a three-
year period. According to the BDP authorization document, $278 million was budgeted through
fiscal year 1998, with $256 million allocated for the lending program and $22 million for
technical assistance and implementation costs.

The BDP also provides training for Bosnian commercial bankers concentrating on loan
structuring and risk assessment. This training is intended to strengthen the Bosnian commercial
banks’ ability to meet the credit requirements of the emerging private commercial sector.


BDP Status

Since the program’s inception, $269.5 million of the $278 million budget has been obligated, of
which $265.7 million has been disbursed. Of the $269.5 million obligated, $232.9 million went
toward the on-lending program, while the remaining $36.6 million was allocated for technical
assistance and program implementation costs. (See Appendix IV.)

Loan Program. Business Finance is responsible for reviewing and assessing credit risk on all
loan applications and for recommending viable loans to USAID/Bosnia-Herzegovina for
approval. Loan proposals classified as "prospective" can potentially be recommended to
USAID/Bosnia-Herzegovina for approval. After USAID/Bosnia-Herzegovina approves a loan,
the Central Bank of Bosnia-Herzegovina can disburse it with USAID's concurrence. During the
one-year period ended March 31, 2000, Business Finance recommended 41 loans valued at $5.4
million to USAID/Bosnia-Herzegovina. These recommendations anticipated an increase of
approximately 243 new jobs. During the same period, the Central Bank disbursed funds for 94
loans, which totaled $10.2 million.

Since the BDP began, USAID/Bosnia-Herzegovina approved 434 loans totaling $133.9 million.
The Central Bank disbursed $125.4 million for 402 of the approved loans. Business Finance’s
cumulative lending activity is shown in the table below:




Page 2 of 5                                                      Audit Report No. B-168-01-001-P
                                                                                                 Appendix III




                        BDP LOAN SUMMARY AS OF MARCH 31, 2000


        Status of Loans                                  Number                      Amount2
                                                         of Loans                   (millions)

Applications
       Recommended by Business Finance3                     523                       $170.3
       Prospective4                                          40                         11.4
       Rejected4                                            515                        186.4
                         TOTAL                            1,078                       $368.1

Recommended by Business Finance3
     Approved by USAID/B-H                                  434                       $133.9
     Awaiting approval by USAID/B-H                           7                          1.8
                                                            441                       $135.7

        Not Approved by USAID/B-H                            82                         34.6
                           TOTAL                            523                       $170.3

Approved by USAID/B-H
      Disbursed                                             402                       $125.4
      Not Yet Disbursed                                      32                          8.5
                                  TOTAL                     434                       $133.9




        2
           Loan amounts are recorded and disbursed in Deutsche Marks, a medium of exchange in Bosnia-
Herzegovina. Loan totals were converted using a weighted average exchange rate of 1.7073 Deutsche Marks to $1.
        3
            For discussion purposes in our report, we have considered loan recommendations by Business Finance to
consist of those recommended loans which were approved or are awaiting approval. We have presented the loans
not approved for information purposes only.
        4
          Information obtained from Business Finance’s March 31, 2000, report.
Page 3 of 5                                                                  Audit Report No. B-168-01-001-P
                                                                                    Appendix III



In prior reporting periods, shortfalls were attributed to systems and personnel restructuring
intended to streamline loan production, a shortage of lending officers available to analyze and
process applications and a change in contractors. Loan volume decreased from about $46.3
million in the prior one-year period to $5.4 million for the current one-year period. According to
program personnel, this decrease was the result of factors such as:

•   Increasing emphasis on loan quality and loan monitoring

•   Shifting of resources to pursue delinquent borrowers and fraudulent banking activities

•   Weakening economy and Kosovo war in the Balkans

•   Growing competition from other lenders.

Business Finance sends monthly bills to both the borrowers and the agent banks. Borrowers
make interest and/or principal payments to their agent bank which then wires the money to the
Bank of America's repayment account at the Central Bank. The interest and/or principal
repayments are tracked and recorded by Business Finance. The funds in the repayment account
have been used for future lending. According to a Business Finance delinquency report as of
March 31, 2000, 109 borrowers were delinquent—a decrease of five from the March 31, 1999
report. The delinquency rate has decreased from 48 percent to 44 percent during this one-year
reporting period. Business Finance had stepped up monitoring efforts in response to our
previous concerns. Business Finance’s loan restructuring and workout group reviews each
borrower’s situation and attempts to restructure the loan or work out a solution in order to
facilitate repayment.

Technical Assistance. During this one-year reporting period, Business Finance conducted
seminars and workshops for bankers, prospective borrowers, and Business Finance staff. The
seminars covered topics such as bank strengthening, the loan application process, and problem
loan management. The internal audit group, and other members of Business Finance, also
provided training in disbursement procedures for agent bank personnel, and field and lending
associates.

To further strengthen the banking community, USAID has created another program called the
Bank Development and Training Program. This program began operations in late February 2000
and will provide in-bank advisory services and formal classroom training. A team of five
resident advisors will transfer banking skills in strategic planning, internal audit and controls,
accounting, liquidity management and other treasury functions, bank operations management,
and information technology.



Page 4 of 5                                                        Audit Report No. B-168-01-001-P
                                                                                    Appendix III


Business Consulting has been working with USAID and other parties in developing a program
on privatization preparation assistance. It has also coordinated efforts with Business Finance and
taken a proactive approach by focusing on companies who could become future delinquents if
corrective actions are not taken. New training programs, such as internet marketing and market
intelligence surveys, are also being developed.




Page 5 of 5                                                        Audit Report No. B-168-01-001-P
                                                                                                        Appendix IV



                           Unaudited Business Development Program
                               Fund Accountability Statement
                                     as of March 31, 2000

The Business Development Program is a five-year program that has a three-year budget. The amounts
that USAID/Bosnia-Herzegovina obligated and disbursed for the program are shown below. The
amount obligated for the On-Lending Program represents the balance-of-payments support to Bosnia-
Herzegovina. Of the $232.9 million transferred to Bosnia-Herzegovina, $125.4 million5 has been
disbursed as loans to borrowers. The disbursed implementation costs are amounts paid by USAID.

                                     3-Year Program                 Amount                    Amount
                                         Budget                    Obligated                 Disbursed
                                        (millions)                 (millions)                (millions)
     On-Lending Program                            $256.0                    $232.9                   $232.9
     Implementation Costs:
            Contractors6                              17.5                      35.9                      32.3
            Audit, Program
            and Evaluation                             1.5                         0                         0
            Environmental
            Monitoring                                   .6                        0                         0
    USAID Program
    Management                                           0                        .7                        .5
            Contingencies                              2.4                         0                         0

              Totals                               $278.0                    $269.5                   $265.7




        5
          Loans were disbursed in Deutsche Marks, a medium of exchange in Bosnia-Herzegovina. A total of 214 million
Deutsche Marks were disbursed and converted using a weighted average exchange rate of 1.7073 Deutsche Marks to $1.
        6
          USAID is not including the Business Consulting contract in the BDP budget. Additional obligations and
disbursements under that contract total $23.1 million and $20.2 Million, respectively.



      Page 1 of 1                                                                      Audit Report No. B-168-01-001-P
                                                                                            Appendix V




                        Problems with State-Owned Enterprises




The “Results of Audit Tests” section discussed problems with state-owned enterprises as noted by
program personnel and relevant documents. Shown below are additional examples of these problems.

Company 1:

The directors of this company and its related holding company have impugned each other’s integrity.
The sawmill has sales of up to $470,000 per month but the Business Finance loan and other expenses
remain unpaid. A director proclaimed, "While your embezzlement allegations are true, I don't like
them!"

Company 2:

In an organizational reshuffling, this company was burdened with $4.7 million in liabilities while the
sawmill which was split off, is debt-free and has monthly sales of at least $380,000. The Business
Finance loan as well as other expenses such as salaries remain unpaid. Unpaid employees have
demanded a criminal investigation.

Company 3:

A previous director and an agent bank were involved in a false document embezzlement. However, no
prosecutions are expected due to his political connections. Monthly sales of up to $175,000 are reported
but the revenue seems to disappear so that the Business Finance loan and other expenses remain unpaid.
A director uses the sawmill to cut logs from his own forest and rents out the sawmill for others to use
without any record of revenue to the company. It appears that the director is attempting to manipulate
company assets in anticipation of a privatization deal.

Company 4:

Although there was monthly production, the Business Finance loan and other expenses remained unpaid.
Chickens were slaughtered off-book each month to avoid taxes. Presently, the facility has been leased to
another company. The local government, who is in charge of the board, unsuccessfully attempted to
sell the company for cash without the knowledge of Business Finance and other creditors. The company
and its bank are the subject of a criminal investigation.




Page 1 of 2                                                               Audit Report No. B-168-01-001-P
                                                                                            Appendix V

Company 5:

After a change in management due to political reasons, its grain inventory seemed to disappear for the
last two years. Grain and milk sales are reported to exceed $530,000 yearly but the Business Finance
loan and other expenses remain unpaid. A director claims a zero grain harvest, yet another company, a
flour mill, continues to receive tons of wheat from this company.

Company 6:

Two former directors were fired for admitted embezzlement but the local government prefers not to
prosecute them. The company has monthly sales of $530,000 but the Business Finance loan and other
expenses remain unpaid. Criminal indictments are expected to be filed in a case involving the Business
Finance loan and the agent bank.

Company 7:

A director of the company for 25 years uses company facilities to complete contracts under other
company names. A former employee attempted to reveal the details of the irregularities but kept silent
after threats by the director. A government privatization agency attempted a "quiet" privatization
without contacting the company's largest creditor, Business Finance. Although yearly sales are in
excess of $2.9 million, the Business Finance loan and other expenses remain unpaid.

Company 8:

The directors of the company appear to have siphoned off income. Revenue in 1999 exceeded $290,000
but the Business Finance loan and other expenses remain unpaid.

Company 9:

Company refuses to disclose its income from its profitable business lines or from its joint venture. A
director threatened an associate to remain silent about the company's dealings. Yearly revenue probably
exceeds $1.5 million but is not accounted for. A criminal investigation is in process.

Company 10:

The company may have been illegally privatized in order to qualify for a Business Finance loan at a time
when USAID had prohibited loans to state-owned enterprises. A state-owned company is extracting the
largest amount of gravel without payment. Monthly gravel sales total $120,000 but the Business
Finance loan and other expenses remain unpaid. A criminal investigation is in process.




Page 2 of 2                                                               Audit Report No. B-168-01-001-P
